Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    OUTLIER AVERAGE
MANUFACTURER PRICES IN THE
   FEDERAL UPPER LIMIT
        PROGRAM




                    Daniel R. Levinson
                     Inspector General

                     September 2009
                     OEI-03-07-00740
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
       E X E C U T I V E                                  S U M M A R Y


                               OBJECTIVES
                               1. To determine whether any Federal upper limit (FUL) drugs met the
                                  outlier criteria because of inconsistencies in how unit types were
                                  reported.

                               2. To determine whether the outlier average manufacturer prices
                                  (AMP) for FUL drugs are accurate.

                               3. To determine whether drugs with outlier AMPs are commonly
                                  available in the marketplace.


                               BACKGROUND
                               The Deficit Reduction Act of 2005 (DRA) made significant changes to
                               Medicaid’s FUL program, which is designed to ensure that the Federal
                               Government acts as a prudent buyer by taking advantage of current
                               market prices for multiple-source drugs. Under new DRA
                               requirements, FUL amounts for most multiple-source drugs are to be
                               based on 250 percent of the lowest reported AMP for each drug rather
                               than 150 percent of the lowest price published in the national
                               compendia of drug cost information. The DRA provisions additionally
                               require AMP data to be made available to both States and the public.

                               As generally defined in statute, the AMP is the average price paid to the
                               manufacturer for the drug in the United States by wholesalers for drugs
                               distributed to the retail pharmacy class of trade. Manufacturers must
                               provide the Centers for Medicare & Medicaid Services (CMS) with the
                               AMP for each of their drug products on both a monthly and quarterly
                               basis. If a product has been discontinued, the manufacturer must
                               provide CMS with the termination date.

                               As reports by the Office of Inspector General (OIG) and the Government
                               Accountability Office have previously shown, the lowest AMP for many
                               FUL drugs falls below pharmacy acquisition costs even when multiplied
                               by 250 percent. To address this issue, CMS announced plans to remove
                               outlier AMPs from the FUL calculation. Pursuant to this outlier policy,
                               CMS will exclude (with certain exceptions) the lowest AMP from the
                               FUL calculation if it is more than 60 percent below the second-lowest
                               AMP. According to CMS, the outlier policy is designed to ensure that
                               two or more drug products can be purchased at or below the FUL
                               amount.



O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM   i
E X E C U T I V E                          S U M M A R Y


                                In preparation for changes to the FUL calculation, CMS has taken steps
                                to ensure that AMP data submitted by manufacturers are correct. In
                                addition to requiring manufacturers to certify their pricing data, CMS
                                contacted the manufacturers of certain drugs in March 2007 and
                                encouraged them to review their AMP submissions for accuracy.
                                However, very few manufacturers directly notified CMS as to whether
                                their AMPs were accurate or inaccurate. CMS has also reminded
                                manufacturers to report termination dates of discontinued drug
                                products in a timely manner.

                                Although many Medicaid drug-related changes enacted by the DRA took
                                effect on January 1, 2007, CMS has yet to use AMP data when
                                establishing FUL amounts. In December 2007, the U.S. District Court
                                for the District of Columbia issued a preliminary injunction to prevent
                                the implementation of AMP-based FULs. In July 2008, the Medicare
                                Improvements for Patients and Providers Act of 2008 directed CMS to
                                refrain from implementing new FUL amounts or publicly disclosing
                                AMP data until October 1, 2009. Until that time, AMPs will remain
                                confidential and FULs will continue to be based on published prices.

                                This study examined 242 FUL drugs with AMPs that would have met
                                CMS’s outlier criterion if the changes enacted by the DRA had been in
                                effect for January 2008. We determined whether outlier AMPs for these
                                drugs had a unit of submission that differed from that of other AMPs
                                associated with the drugs. In addition, we contacted the manufacturers
                                of drug products with outlier AMPs and asked them to verify the
                                accuracy of those AMP submissions. We also asked them whether the
                                products in question were commonly available to the retail pharmacy
                                class of trade.


                                FINDINGS
                                Because of unit-type discrepancies, some AMPs may not have
                                actually been outliers. Of the 242 outlier AMPs identified by CMS,
                                18 may only have appeared as outliers because of discrepancies in the
                                unit types for which AMPs were reported. Most of the outlier AMPs
                                with inconsistent units of submission were reported in milliliters,
                                whereas other AMPs for the same drugs were typically reported in units
                                of “each” (which typically denotes a whole package, regardless of the
                                amount of drug contained in that package). Because these 18 drugs
                                may not have been outliers, we did not determine whether their AMPs
                                were accurate or whether the drug was commonly available.


 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM   ii
E X E C U T I V E                          S U M M A R Y


                                According to manufacturers, most outlier AMPs were accurate. We
                                reviewed the accuracy of January 2008 AMPs for 185 of the 242 outlier
                                drugs identified by CMS. Of these 185 outlier AMPs, manufacturers
                                reported that 81 percent (150 of 185) were accurate, 18 percent (33 of
                                185) were inaccurate, and 1 percent (2 of 185) were potentially
                                inaccurate. According to corrected AMP data provided by
                                manufacturers, over half of the inaccurate AMPs (18 of 33) would have
                                remained outliers under CMS’s current policy, even with revised data.
                                As a result, these 18 AMPs would still have been excluded from CMS’s
                                FUL calculations.
                                According to manufacturers, the vast majority of drug products with
                                outlier AMPs were commonly available to the retail pharmacy class
                                of trade. Manufacturers reported that 89 percent of outlier drugs
                                included in this review (165 of 185) were commonly available to the
                                retail pharmacy class of trade. Only 3 percent (6 of 185) were reported
                                as not commonly available. For an additional 3 percent (6 of 185), the
                                manufacturer could not state with certainty that the products were
                                commonly available. The remaining 4 percent of outlier drugs (8 of 185)
                                have been terminated by manufacturers and therefore should have been
                                eliminated from FUL calculations before CMS’s outlier policy was
                                applied.


                                RECOMMENDATIONS
                                To ensure fair and adequate reimbursement, CMS plans to remove
                                outlier AMPs from future FUL calculations. In January 2008, AMPs for
                                242 FUL drugs met CMS’s definition of an outlier. This study
                                demonstrates that a large majority of these outlier AMPs are, according
                                to manufacturers, accurate and reflective of sales to the retail pharmacy
                                class of trade. However, we found potential issues with approximately
                                20 percent of the outlier AMPs for FUL drugs. Some AMPs identified
                                by CMS as outliers may only have appeared as such because of
                                discrepancies in the unit of AMP submission. Furthermore, according
                                to manufacturers, some outlier AMPs are not accurate and would no
                                longer be outliers if revised data were used. Also, several outlier drug
                                products are no longer sold by manufacturers and therefore should not
                                be included in FUL calculations.

                                We recognize that CMS has taken steps to proactively resolve potential
                                problems with FUL amounts based on AMP data. Furthermore,
                                because CMS may set FULs based only on the data provided by


 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM   iii
E X E C U T I V E                          S U M M A R Y


                                manufacturers, it is incumbent upon manufacturers to report accurate
                                AMPs, termination dates, and units of measure for their covered
                                outpatient drugs.

                                OIG supports CMS’s continuing efforts to ensure the integrity of future
                                FUL amounts based on AMPs and further recommends that CMS:
                                Examine the units of AMP submission for all FUL drugs before
                                establishing FUL amounts.
                                Direct manufacturers to periodically examine their monthly AMP
                                calculations to ensure accurate reporting of data.
                                Continue directing manufacturers to report termination dates for
                                discontinued drug products as soon as they are known.


                                AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                RESPONSE
                                CMS concurred with our first and third recommendations but did not
                                explicitly concur or not concur with our second recommendation.
                                Without further information from OIG regarding the causes of the
                                inaccurate AMPs identified in this report, CMS does not believe that
                                our second recommendation can be implemented. CMS believes it
                                would not be beneficial to instruct manufacturers to reexamine their
                                AMPs without giving them an indication of the specific problems that
                                need to be addressed.

                                However, directing manufacturers to periodically review their monthly
                                AMP calculations could ensure more accurate reporting of data, even
                                without detailed guidance. As a result of OIG’s work, some
                                manufacturers examined and revised their monthly AMP calculations
                                and did so without guidance on the problems that should be addressed.
                                We will provide CMS with any explanations offered by manufacturers
                                for their AMP revisions, including changes to lagged price concession
                                data or chargeback smoothing methods. We will also provide CMS with
                                details regarding how inaccurate AMPs for individual drug products
                                changed as a result of manufacturers’ corrections.




 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM   iv
   T A B L E            O F             C O N T E N T S



         EXECUTIVE SUMMARY..................................i



         INTRODUCTION ......................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                   Because of unit-type discrepancies, some AMPs may not have
                   actually been outliers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                   According to manufacturers, most outlier AMPs were accurate . . 12

                   According to manufacturers, the vast majority of drug products
                   with outlier AMPs were commonly available to the
                   retail pharmacy class of trade . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                   Agency Comments and Office of Inspector General Response . . . 16



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                   A: Differences Between the Lowest and Second-Lowest Average
                      Manufacturer Prices for Outlier Drugs . . . . . . . . . . . . . . . . . . 18

                   B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
       I N T R O D U C T I O N


                               OBJECTIVES
                               1. To determine whether any Federal upper limit (FUL) drugs met the
                                  outlier criteria because of inconsistencies in how unit types were
                                  reported.

                               2. To determine whether the outlier average manufacturer prices
                                  (AMP) for FUL drugs are accurate.

                               3. To determine whether drugs with outlier AMPs are commonly
                                  available in the marketplace.


                               BACKGROUND
                               Pursuant to section 1927(e) of the Social Security Act (the Act), as
                               amended by the Deficit Reduction Act of 2005 (DRA), P.L. No. 109-171,
                               Medicaid FULs for most multiple-source drugs are to be based on 250
                               percent of the lowest AMP submitted by any manufacturer of the drug.
                               As reports by the Office of Inspector General (OIG) and the Government
                               Accountability Office (GAO) have shown, the lowest AMP for many of
                               these drugs falls below pharmacy acquisition costs even when
                               multiplied by 250 percent. 1 Pharmacy and patient groups have
                               expressed great concern that this could impact Medicaid beneficiaries’
                               access to certain products. 2
                               In an attempt to address this issue, the Centers for Medicare &
                               Medicaid Services (CMS) announced plans to remove outlier AMPs from
                               the FUL calculation. Pursuant to 42 CFR § 447.514(c), published July
                               17, 2007, CMS will exclude the lowest AMP from the FUL calculation if
                               it is less than 40 percent of the second-lowest AMP, with certain
                               exceptions. 3 In other words, the lowest AMP is considered to be an
                               outlier if it is more than 60 percent below the second-lowest AMP.


                               1 OIG, “Deficit Reduction Act of 2005: Impact on the Medicaid Federal Upper Limit
                               Program” (OEI-03-06-00400), June 2007 and GAO, “Medicaid Outpatient Prescription
                               Drugs: Estimated 2007 Federal Upper Limits for Reimbursement Compared with Retail
                               Pharmacy Acquisition Costs” (GAO-07-239R), December 2006. These studies were
                               conducted before changes to the definition of an AMP, such as the exclusion of prompt-pay
                               discounts, took effect.
                               2 An example includes the National Association of Chain Drug Stores, “Implications of
                               Federal Medicaid Generic Drug Payment Reductions for State Policymakers,” May 2007
                               Issue Brief.
                               3 Pursuant to 42 CFR § 447.514(c)(3), the outlier policy will not apply when the FUL group
                               includes only the brand name drug and the first new generic or authorized generic drug
                               that has entered the market.



O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM                   1
I N T R O D U C T I O N


                                According to CMS, the outlier policy is designed to help ensure that two
                                or more drug products can be purchased at or below the FUL amount. 4
                                In OIG’s report, “Deficit Reduction Act of 2005: Impact on the Medicaid
                                Federal Upper Limit Program” (OEI-03-06-00400), we found that
                                14 percent of the lowest AMPs met the outlier threshold in the second
                                quarter of 2006.
                                Medicaid Reimbursement for Prescription Drugs
                                Currently, all 50 States and the District of Columbia (hereinafter
                                referred to as States) offer prescription drug coverage under Medicaid.
                                Medicaid beneficiaries typically obtain covered drugs from pharmacies.
                                Pharmacies bill State Medicaid agencies using national drug codes
                                (NDC), which are 11-digit identifiers that indicate a drug’s
                                manufacturer, product dosage form, and package size. Pharmacies are
                                then reimbursed for these drugs by State Medicaid agencies. In
                                calendar year 2007, Medicaid payments for prescription drugs totaled
                                approximately $22 billion. 5
                                Federal regulations require, with certain exceptions, that each State
                                Medicaid agency’s reimbursement for covered outpatient drugs not
                                exceed (in the aggregate) the lower of the estimated acquisition cost
                                plus a reasonable dispensing fee or the provider’s usual and customary
                                charge to the public for the drugs. 6 CMS allows States the flexibility to
                                define estimated acquisition cost, with most States basing their
                                calculations on list prices published in the national drug compendia
                                (e.g., Micromedex’s “Redbook”). For certain drugs, States also use the




                                4 72 Fed. Reg. 39216 (July 17, 2007).
                                5 Calculated using national summary data for 2007. This amount includes both Federal
                                and State payments. Rebates collected by States under the Medicaid drug rebate program
                                (section 1927 of the Act) were not subtracted from this figure. Because of problems with
                                South Dakota’s utilization data for the third quarter of 2007, payments for this State were
                                excluded from the total. Data for additional States may not have been complete at the time
                                of extraction. Therefore, the 2007 drug expenditures presented in this report may
                                underestimate Medicaid’s actual expenditures. National and State utilization data are
                                available online at http://www.cms.hhs.gov/MedicaidDrugRebateProgram/SDUD/list.asp.
                                Accessed on September 17, 2008.
                                6 42 CFR § 447.331(b). On July 17, 2007, CMS issued a final regulation that would remove
                                42 CFR § 447.331 but include the unchanged substance of this section in a new section,
                                42 CFR § 447.512.



 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM                2
I N T R O D U C T I O N


                                FUL program or State maximum allowable cost programs in setting
                                reimbursement amounts. 7
                                The FUL Program
                                The FUL program was created to ensure that the Federal Government
                                acts as a prudent buyer by taking advantage of current market prices
                                for multiple-source drugs. CMS publishes the FUL list, as well as any
                                revisions, on its Web site. CMS establishes a FUL for specific forms and
                                strengths for each multiple-source drug on the list.

                                Prior to the DRA, section 1927(e)(4) of the Act and 42 CFR § 447.332
                                required CMS to establish a FUL amount for a drug when three or more
                                formulations of the drug were rated as therapeutically equivalent by the
                                Food and Drug Administration and at least three suppliers of the drug
                                were listed in current editions (or updates) of the published compendia
                                of cost information for drugs available for sale nationally.

                                As originally set forth in 42 CFR § 447.332, FUL amounts are equal to
                                150 percent of the price published in a national compendia for the least
                                costly therapeutically equivalent product that can be purchased by
                                pharmacists in quantities of 100 tablets or capsules, plus a reasonable
                                dispensing fee. For liquid drugs or drugs not typically available in
                                quantities of 100, the FUL amount is based on the price for a commonly
                                listed size of the product. States are required to meet FUL
                                requirements only in the aggregate, i.e., a State may pay more than the
                                FUL amount for certain products as long as these payments are
                                balanced out by lower payments for other products.
                                Changes to FULs Under the Deficit Reduction Act of 2005
                                The DRA made significant changes to the FUL program. To be included
                                on the FUL list under DRA requirements, a drug needs only two
                                therapeutically and pharmaceutically equivalent versions and must be
                                listed in a nationally available pricing compendium by a minimum of
                                only two suppliers. 8 In addition, FUL amounts are to be based on
                                250 percent of the lowest reported AMP for each drug rather than
                                150 percent of the lowest price published in the national compendia. 9


                                7 Many States have implemented maximum allowable cost programs to limit
                                reimbursement amounts for certain drugs. Individual States determine the types of drugs
                                that are included in their maximum allowable cost programs and the methods by which the
                                maximum allowable cost for a drug is calculated.
                                8 DRA §§ 6001(a)(1)(B) and (a)(3); 42 CFR §§ 447.514(a)(1)(i) and (ii).
                                9 DRA § 6001(a)(2).




 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM            3
I N T R O D U C T I O N


                                As generally defined in section 1927(k)(1) of the Act, an AMP is the
                                average price paid to the manufacturer for the drug in the
                                United States by wholesalers for drugs distributed to the retail
                                pharmacy class of trade. 10 The AMP is generally calculated as a
                                weighted average of prices for a manufacturer’s package sizes of a drug
                                sold during a given quarter and is reported for the lowest identifiable
                                quantity of the drug as measured by one of eight unit types: capsule,
                                tablet, milliliter, gram, each, suppository, transdermal patch, and
                                injectable antihemophilic factor units. 11 12 (For example, an AMP
                                might be submitted for 1 tablet, 1 milliliter, or 1 gram.)
                                Pursuant to sections 1927(b)(3) and (k)(8) of the Act, manufacturers
                                must provide CMS with the AMP for each of their NDCs on a quarterly
                                basis, with submissions due 30 days after the close of each quarter.13 If
                                an NDC has been discontinued, the manufacturer must provide CMS
                                with the product’s termination date. 14 15
                                Under the DRA changes, manufacturers must also report AMPs on a
                                monthly basis, with submissions due 30 days after the end of the
                                month. 16 The DRA provisions additionally require CMS to disclose
                                AMP data to both States and the public. 17



                                10 Prior to the enactment of the DRA, manufacturers were required to deduct customary

                                prompt pay discounts when calculating AMPs. However, section 6001(c)(1) of the DRA
                                amended section 1927(k)(1) of the Act such that AMPs must be determined without regard
                                to customary prompt pay discounts, effective January 2007. In December 2006, CMS
                                instructed manufacturers to exclude customary prompt pay discounts from their AMP
                                calculations as of January 2007.
                                11 These eight unit types are specified by CMS in its “Definitions for Drug Product Data.”
                                Available online at http://www.cms.hhs.gov/MedicaidDrugRebateProgram/downloads/
                                proddata.pdf. Accessed on September 23, 2008.
                                12 Because AMPs are averaged across different package sizes of a drug, the most commonly
                                used package size will no longer be considered when computing new FUL amounts.
                                13 Quarterly AMP data are collected for the purposes of calculating rebates owed to
                                Medicaid by drug manufacturers.
                                14 CMS, Drug Manufacturer Release Number 79 (August 15, 2007), and 72 Fed. Reg. 39142,
                                39207 (July 17, 2007).
                                15 According to CMS, a drug’s termination date depends on the reason it is being
                                discontinued by the manufacturer. If a drug product is removed from the shelf immediately
                                because of a health or safety concern, the termination date is the date removed. Otherwise,
                                the termination date is the shelf life of the last batch sold. In either case, the manufacturer
                                must continue reporting the product’s AMP for 1 full year after its termination date.
                                16 DRA § 6001(b)(1)(A).
                                17 DRA § 6001(b). Prior to the DRA, section 1927(b)(3)(D) of the Act guaranteed the
                                confidentiality of AMP data reported by manufacturers (with certain exceptions).



 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM                    4
I N T R O D U C T I O N


                                FUL amounts established under the DRA are to be based on monthly,
                                rather than quarterly, AMP data 18 and will derive from AMPs
                                representing transactions that occurred 3 months previously. 19 For
                                example, if new DRA requirements had been in effect during August
                                2008, FUL amounts published for that month would have been based on
                                AMPs submitted by manufacturers for sales in May 2008.

                                In preparation for changes to the FUL calculation, CMS has taken steps
                                to ensure that AMP data submitted by manufacturers are correct. For
                                example, CMS requires manufacturers to certify their monthly and
                                quarterly AMPs before submission. Furthermore, CMS contacted
                                100 manufacturers in March 2007 and encouraged them to review the
                                accuracy of their AMP data for certain drugs. However, very few
                                manufacturers directly notified CMS as to whether their AMPs were
                                accurate or inaccurate.
                                Implementation of FUL Amounts Based on Average Manufacturer Prices
                                In July 2007, CMS published a final rule that, among other things,
                                implemented the DRA provisions relating to FULs. 20 According to the
                                outlier policy set forth in 42 CFR § 447.514(c), the lowest AMP will be
                                excluded from the FUL calculation if it is less than 40 percent of the
                                second-lowest AMP. 21 In other words, the lowest AMP is considered to
                                be an outlier if it is more than 60 percent below the second-lowest AMP.
                                Pursuant to 42 CFR § 447.514(c)(3), the outlier policy will not apply
                                when the FUL group includes only the brand name drug and the first
                                new generic or authorized generic drug that has entered the market.
                                AMPs for terminated NDCs will also be excluded from new FUL
                                calculations. 22
                                Although the final regulation took effect on October 1, 2007, CMS has
                                yet to use AMP data when establishing FUL amounts. 23 Initially, CMS
                                planned to issue the first AMP-based FULs on December 30, 2007.
                                However, on December 19, 2007, the U.S. District Court for the District
                                of Columbia preliminarily enjoined the implementation of CMS’s final

                                18 72 Fed. Reg. 39142, 39207 (July 17, 2007).
                                19 CMS, Average Manufacturer Price/Federal Upper Limit Timeline, October 21, 2007.
                                20 72 Fed. Reg. 39142, 39244 (July 17, 2007).
                                21 CMS solicited public comment on the new outlier policy described in its final regulation,
                                with comments due in January 2008. However, as of November 2008, no additional
                                information on CMS’s outlier policy has been released.
                                22 42 CFR § 447.514(c)(1).
                                23 As of November 2008.




 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM                     5
I N T R O D U C T I O N


                                rule concerning AMPs to the extent that it affects Medicaid
                                reimbursement rates for retail pharmacies. In July 2008, the Medicare
                                Improvements for Patients and Providers Act of 2008 (Improvements
                                Act), P.L. No. 110-275, further delayed the implementation of new FULs
                                based on AMPs. Pursuant to sections 203(a) and (b) of the
                                Improvements Act, CMS must not take action to implement AMP-based
                                FUL amounts or publicly disclose AMP data before October 1, 2009.
                                Until that time, AMPs will remain confidential and FUL amounts will
                                continue to be based on published prices. 24
                                Previous Office of Inspector General Work Regarding the FUL Program and
                                Average Manufacturer Prices
                                Previous OIG work found that the published prices used to set Medicaid
                                FUL amounts before 2007 often greatly exceeded prices available in the
                                marketplace. 25 Based in part on this work, the DRA required that
                                Medicaid FULs be based on 250 percent of the lowest AMP rather than
                                on 150 percent of the lowest price published in the national compendia.

                                In June 2007, OIG released a report assessing the potential effect of
                                AMP-based FULs entitled “Deficit Reduction Act of 2005: Impact on the
                                Medicaid FUL Program” (OEI-03-06-00400). According to this report,
                                pre-DRA FUL amounts substantially exceeded estimated average
                                pharmacy acquisition costs for 25 selected drugs in the second quarter
                                of 2006 and would decrease considerably under the new calculation
                                method established by the DRA. 26 In fact, pharmacies would only have
                                been able to purchase 6 of the 25 reviewed drugs for less than the new
                                FUL amount, on average. Furthermore, OIG found that the AMP used
                                to set the FUL amount may be substantially lower than other AMPs
                                associated with a drug. Of the 521 drugs on the FUL list, the lowest
                                AMP for 14 percent was more than 60 percent below the second-lowest
                                AMP.

                                Previous OIG work has also found that future Medicaid reimbursement
                                could be affected by inconsistencies among the unit types used by
                                manufacturers to report AMP data. According to a 2007 report, CMS’s

                                24 Improvements Act § 203(a)(1).
                                25 OIG, “Comparison of Medicaid Federal Upper Limit Amounts to Average Manufacturer
                                Prices” (OEI-03-05-00110), June 2005 and “How Inflated Published Prices Affect Drugs
                                Considered for the Federal Upper Limit List” (OEI-03-05-00350), September 2005.
                                26 At the time OIG conducted its assessment, CMS had not fully developed its outlier policy.
                                Therefore, for the purposes of OIG’s report, FUL amounts were calculated without regard to
                                outlier AMPs.



 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM                6
I N T R O D U C T I O N


                                unit of measure standards for the Medicaid drug rebate program are not
                                always consistent with the unit standards established by the National
                                Council for Prescription Drug Programs for retail transactions. 27 To
                                address this issue, OIG recommended that CMS provide more specific
                                guidance to manufacturers for certain units of measure, possibly
                                including a detailed framework for selecting the appropriate unit type
                                for a drug. CMS disagreed with the suggestion that broad guidance
                                could resolve issues that differ on a case-by-case basis and stated that it
                                would be virtually impossible to develop a framework or process that
                                would effectively apply to all products.


                                METHODOLOGY
                                Scope
                                This study examined the accuracy of outlier AMPs that could affect new
                                FUL amounts established under the DRA, as well as the availability of
                                drug products with outlier AMPs. We examined only those drugs
                                identified by CMS as having a lowest AMP that is more than 60 percent
                                below the second-lowest AMP. This outlier criterion allows for only a
                                single outlier for each FUL drug. It does not capture instances in which
                                the second-lowest AMP also differs substantially from the other AMPs
                                associated with the drug.

                                This study was not intended to address whether CMS should have an
                                outlier policy, nor did we evaluate the effectiveness of CMS’s current
                                outlier policy. Furthermore, we did not examine whether pharmacies
                                can acquire drugs with outlier AMPs for those outlier prices.
                                Data Sources
                                We obtained the file that CMS used to determine new FUL amounts for
                                eligible drugs based on AMP data from January 2008. 28 This file
                                contains information about multiple source drugs in the Medicaid
                                program, including each drug’s ingredients, strength, dosage, and route
                                of administration; the NDC and January 2008 AMP for each individual
                                drug product; therapeutic equivalency information; and whether the
                                drug was eligible for inclusion on the FUL list under new DRA


                                27 OIG, “Unit of Measure Inconsistencies in the Medicaid Prescription Drug Program”

                                (OEI-05-07-00050), November 2007.
                                28 Although the AMP injunction and the Improvements Act prevent CMS from
                                implementing new FUL amounts based on AMPs, CMS continues to collect monthly AMP
                                data from manufacturers and compute new FUL amounts based on those AMPs.



 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM            7
I N T R O D U C T I O N


                                requirements. If a drug met the new requirements, the file indicated
                                the FUL amount for the drug, as well as whether the drug had a lowest
                                AMP that was more than 60 percent below the next lowest AMP.

                                Based on data from January 2008, CMS identified 1,332 drugs that met
                                new FUL requirements specified in 42 CFR 447.514. These 1,332 drugs
                                corresponded to 6,948 therapeutically equivalent 9-digit NDCs. 29
                                AMPs identified as outliers by CMS. Of the 1,332 drugs in CMS’s
                                January 2008 FUL file, 242 (18 percent) were identified by CMS as
                                having lowest AMPs that were more than 60 percent below the
                                second-lowest AMPs. We identified the 9-digit NDCs associated with
                                the lowest AMPs for each of these drugs.

                                Appendix A describes the extent to which outlier AMPs in CMS’s file
                                differed from the second-lowest AMPs.

                                Examining units of AMP submission for outlier drugs. While examining
                                CMS’s January 2008 FUL file, we became aware that the unit of AMP
                                submission for any given FUL drug was not always consistent among
                                manufacturers that sell the drug. For example, if Drug X is sold in
                                10-milliliter vials, manufacturer A might have submitted an AMP for
                                1 milliliter, whereas manufacturer B might have submitted an AMP for
                                1 vial. These two AMPs would not represent the same amount of the
                                drug and therefore would not be comparable for the purposes of
                                identifying outliers and establishing FUL amounts.

                                To determine the number of outliers affected by this issue, we reviewed
                                the units of submission for each of the 242 outlier AMPs included in our
                                study. 30 We identified outlier AMPs with a unit of submission that
                                appeared to be different from that of other AMPs associated with the
                                drug.
                                Data Collection
                                Using address information downloaded from CMS’s Web site, we
                                contacted the manufacturers of the 242 drug products with


                                29 The first 9 digits of an 11-digit NDC represent the manufacturer and dosage form of the

                                drug, and the last 2 digits represent the package size of the drug. As mentioned previously,
                                an AMP is averaged across all package sizes for a drug. Because the 9-digit NDC is the
                                same across all package sizes, manufacturers calculate AMPs for NDCs at the 9-digit level
                                rather than the 11-digit level.
                                30 The file CMS used to calculate FULs based on January 2008 AMPs did not contain units
                                of submission for the AMPs. We therefore used the units of submission from CMS’s first-
                                quarter 2008 AMP file.



 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM                   8
I N T R O D U C T I O N


                                January 2008 AMPs identified as outliers by CMS. 31 Using written
                                data collection instruments distributed by mail, we asked
                                40 manufacturers to verify the accuracy of their January 2008 outlier
                                AMP submissions. If a manufacturer indicated that an outlier AMP
                                was incorrect, we asked for corrected data.

                                To determine whether drug products with outlier AMPs are available in
                                the marketplace, we also asked manufacturers whether the products in
                                question are commonly available to the retail pharmacy class of trade,
                                as defined in 42 CFR § 447.504(e). 32
                                We made as many as three attempts to contact 40 drug manufacturers
                                between May and July 2008. We received responses from 37 of the
                                40 manufacturers. The remaining three manufacturers never
                                responded to our request despite what appeared to be accurate contact
                                information.
                                Analysis of Manufacturer Responses
                                We aggregated manufacturers’ responses regarding the accuracy of
                                outlier AMPs and the availability of drug products associated with those
                                AMPs. Outlier AMPs associated with the three nonrespondents were
                                excluded from our analysis of manufacturers’ responses, as were outlier
                                AMPs with a unit of submission that appeared to be different from that
                                of other AMPs associated with the drug.

                                If a manufacturer reported that an outlier AMP was incorrect, we
                                determined whether the corrected AMP would still have been more than
                                60 percent below the second-lowest AMP. We also examined how FUL
                                amounts would have been affected by the corrected AMPs provided by
                                manufacturers.
                                Limitations
                                We did not independently verify whether FUL drugs in CMS’s file
                                actually met the requirements established under the DRA, nor did we
                                independently determine which drugs had a lowest AMP that met



                                31 Contact information for drug manufacturers that participate in the Medicaid drug rebate
                                program is available online at http://www.cms.hhs.gov/MedicaidDrugRebateProgram/
                                10_DrugComContactInfo.asp. Accessed on March 12, 2008.
                                32 For the purposes of this study and pursuant to 42 CFR § 447.504(e), “retail pharmacy
                                class of trade” means any independent pharmacy, chain pharmacy, mail order pharmacy or
                                other outlet that purchases drugs from a manufacturer, wholesaler, distributor, or other
                                licensed entity and subsequently sells or provides the drugs to the general public.



 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM                9
I N T R O D U C T I O N


                                CMS’s outlier criterion. Rather, we examined January 2008 AMPs for
                                drugs that CMS had already identified as outliers.

                                Information regarding the accuracy of AMP data and the availability of
                                drug products to the retail pharmacy class of trade was self-reported by
                                manufacturers. Manufacturers were not required to furnish
                                documentation demonstrating the way in which the outlier AMPs were
                                calculated, nor were they required to provide sales data supporting the
                                availability of drugs. However, each respondent was asked to provide a
                                signed statement certifying that the data provided was true and
                                accurate to the best of his or her knowledge.
                                Furthermore, AMPs are measures of central tendency for a range of
                                prices available in the marketplace. Therefore, if a manufacturer
                                indicated that a drug product with an outlier AMP was available to the
                                retail pharmacy class of trade, it does not necessarily mean that all
                                pharmacies could purchase the drug product for a very low price.
                                Rather, it means that the drug product was widely available for
                                purchase at prices that, when averaged, resulted in the outlier AMP
                                reported to CMS.
                                Standards
                                This study was conducted in accordance with the “Quality Standards for
                                Inspections” approved by the Council of the Inspectors General on
                                Integrity and Efficiency.




 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM   10
            F I N D I N G S

         Because of unit-type discrepancies,                            Eighteen of the two hundred
some AMPs may not have actually been outliers                           forty-two outlier drugs identified by
                                                                        CMS (7 percent) may only have
                                    appeared to be outliers because of discrepancies in the unit types for
                                    which AMPs were reported. 33 The lowest AMP for each of the 18 drugs
                                    had a unit of submission that differed from that of other AMPs
                                    associated with the drug and therefore may have represented a different
                                    amount of the drug. If manufacturers of these 18 drug products had
                                    submitted their AMPs using the same unit as other AMPs for the drug,
                                    the AMPs may not have been classified as outliers.
                                    For example, Drug Y is sold in 20-milliliter vials by three different
                                    manufacturers. 34 One manufacturer submitted an AMP of $65 for a
                                    vial. Another manufacturer submitted an AMP of $60 for a vial. A
                                    third manufacturer submitted an AMP of $3 for 1 milliliter of the drug.
                                    The $3 AMP appears to be an outlier but only because it represents a
                                    different amount of the drug. If the third manufacturer had submitted
                                    an AMP for a vial rather than a milliliter, the AMP would have been
                                    $60 and would not have met any outlier criteria.
                                    Most of the outliers with inconsistent units of submission were reported in
                                    milliliters
                                    Lowest AMPs for 16 of the 18 drugs with unit-type discrepancies were
                                    reported in milliliters, whereas other AMPs for the same drugs were
                                    typically reported as “each.” “Each” denotes a whole package,
                                    regardless of the amount of drug (milliliters, grams, etc.) contained in
                                    that package. According to CMS, manufacturers should report AMPs in
                                    units of “each” when the drug product is a powder-filled vial, ampule,
                                    syringe, packet, or a kit containing two or more different items
                                    dispensed as one product and sold at a single price. Some of the outlier
                                    AMPs reported in milliliters appear to represent powder-filled vials. To
                                    successfully compare those AMPs to the AMPs reported for each vial, it
                                    would first be necessary to identify the amount of liquid used to
                                    reconstitute the powder. This can sometimes be a difficult task.




                                    33 Because these 18 drugs may not have been outliers, we did not assess whether their
                                    AMPs were accurate or whether the drugs were commonly available.
                                    34 This example is based on data submitted for an actual outlier drug. However, because of
                                    the confidential nature of AMP data, we cannot publicly disclose the name of the drug.



     O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM               11
F I     N D I               N G   S



                        According to manufacturers,                 We reviewed the accuracy of
                     most outlier AMPs were accurate                January 2008 AMPs for 185 of the
                                                                    242 outlier drugs identified by CMS. 35
                                  Of these 185 products, manufacturers reported that 81 percent (150 of
                                  185) were accurate. Another 18 percent (33 of 185) were reported as
                                  inaccurate by manufacturers. An additional 1 percent (2 of 185) were
                                  reported as potentially inaccurate. 36
                                  Over half of inaccurate AMPs would have remained outliers using corrected
                                  AMP data provided by manufacturers
                                  Manufacturers for the 33 drug products with inaccurate outlier AMPs
                                  provided OIG with corrected AMP data for January 2008. 37 According
                                  to this corrected data, AMPs for over half (18 of 33) of the drug products
                                  would have remained outliers under CMS’s outlier policy 38 , even with
                                  the corrected prices. Because the corrected AMPs for these drugs were
                                  more than 60 percent below the second-lowest AMPs, they would still
                                  have been excluded from CMS’s FUL calculations.

                                  AMPs for the remaining drug products (15 of 33) would no longer have
                                  been outliers under CMS’s policy. In other words, these AMPs would no
                                  longer have been more than 60 percent below the second-lowest AMP.
                                  Of the 15 drugs that no longer met CMS’s outlier criteria, corrected
                                  AMPs for 12 were still the lowest AMPs. 39 Therefore, if manufacturers
                                  had reported their January 2008 AMPs correctly, these 12 drugs would
                                  have been used to establish FUL amounts. 40 As a result, FULs for the
                                  12 drugs would have actually been lowered by an average of 29 percent.


                                  35 The remaining 57 outlier drugs were excluded from our analysis because they had
                                  inconsistent units of AMP submission or the manufacturers did not respond to our request.
                                  36 According to the manufacturer for these two outlier drug products, data and
                                  programming errors had created inaccuracies in their monthly AMP calculations. At the
                                  time of our survey, the manufacturer did not know how or if those errors had affected the
                                  outlier AMPs identified in our study. We therefore classified these AMPs as “potentially
                                  inaccurate.”
                                  37 Manufacturers for drugs with inaccurate outlier AMPs were not asked why the reported
                                  inaccuracies occurred. However, some respondents voluntarily provided explanations for
                                  the revisions, including changes to lagged price concession data or chargeback smoothing
                                  methods.
                                  38 As set forth in 42 CFR § 447.514(c).
                                  39 Although the corrected AMPs for these 12 drugs were still the lowest AMPs, most were
                                  approximately two to seven times higher than the January 2008 AMPs initially submitted
                                  by the manufacturers.
                                  40 Under the DRA, FUL amounts are calculated by multiplying the lowest AMP for the
                                  drug by 250 percent, with certain exceptions.



 O E I - 0 3 - 0 7 - 0 0 74 0     OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM                  12
F I      N D I               N G   S


                                   For the remaining three drugs, corrected AMPs were not the lowest
                                   AMPs. Therefore, FUL amounts for these three drugs would not have
                                   changed even if manufacturers had reported their January 2008 AMPs
                                   correctly.



According to manufacturers, the vast majority of                           CMS’s outlier policy is designed
drug products with outlier AMPs were commonly                              in part to ensure that at least
                                                                           two drug products are available
   available to the retail pharmacy class of trade
                                                                           at or below the FUL amount. 41
                                   According to manufacturers, the vast majority of drugs with outlier
                                   AMPs (89 percent, 165 of 185) were commonly available to the retail
                                   pharmacy class of trade. 42 Only 3 percent (6 of 185) of outlier drug
                                   products were reported as not commonly available. For another
                                   3 percent (6 of 185), the manufacturer could not state with certainty
                                   that the products are commonly available.
                                   According to manufacturers, the remaining 4 percent (8 of 185) of drugs
                                   that met CMS’s outlier criteria have been terminated. In fact, one of
                                   these products was discontinued by the manufacturer almost 2 years
                                   ago. Pursuant to 42 CFR § 447.514 (c)(1), the AMP of a terminated
                                   NDC should not be used to establish a FUL amount. Therefore, these
                                   eight discontinued drug products should have been eliminated from
                                   FUL calculations before CMS’s outlier policy was applied.




                                   41 72 Fed. Reg. 39216 (July 17, 2007).
                                   42 The remaining 57 outlier drugs were excluded from our analysis because they had
                                   inconsistent units of AMP submission or the manufacturers did not respond to our request.



  O E I - 0 3 - 0 7 - 0 0 74 0     OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM             13
       R E C O M M E N D A T I O N S




                               The DRA made significant changes to Medicaid’s FUL program. Under
                               new DRA requirements, FUL amounts for most multiple-source drugs
                               are to be based on 250 percent of the lowest reported AMP for each drug
                               rather than 150 percent of the lowest price published in the national
                               compendia.

                               To ensure fair and adequate reimbursement, CMS plans to remove
                               outlier AMPs from the FUL calculation. As set forth in 42 CFR §
                               447.514(c), CMS will exclude (with certain exceptions) the lowest AMP
                               from the FUL calculation if it is more than 60 percent below the
                               second-lowest AMP. This outlier policy is designed to ensure that at
                               least two drugs are available at or below the FUL amount.

                               In January 2008, the lowest AMPs for 242 FUL drugs met CMS’s
                               definition of an outlier. This study demonstrates that a large majority
                               of these outlier AMPs are, according to manufacturers, accurate and
                               reflective of sales to the retail pharmacy class of trade.

                               However, we found potential issues with about 20 percent of the outlier
                               AMPs for FUL drugs. Some AMPs identified by CMS as outliers may
                               only have appeared as such because of discrepancies in the unit of AMP
                               submission. Furthermore, according to manufacturers, some outlier
                               AMPs are not accurate and would no longer be outliers if revised data
                               were used. Also, several outlier drug products are no longer sold by
                               manufacturers and therefore should not be included in FUL
                               calculations.

                               We recognize that CMS has taken steps to proactively resolve potential
                               problems with AMP-based FUL amounts. In addition to requiring
                               manufacturers to certify their pricing data, CMS contacted the
                               manufacturers of certain drugs in March 2007 and encouraged them to
                               review their AMP submissions for accuracy. CMS has also reminded
                               manufacturers to report termination dates of discontinued drug
                               products in a timely manner.

                               We further recognize that under the DRA, CMS may set FULs based
                               only on the data provided by manufacturers. Therefore, drug
                               manufacturers play an important role in helping to ensure that new
                               FULs are appropriate and must make certain that pricing data, units of
                               measure, and termination dates are reported to CMS in an accurate and
                               timely way. If and when CMS is permitted to publicly disclose AMP


O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM   14
R E C O M M E N D A T I O N S


                                data, the resulting transparency may lead to more accurate reporting of
                                pricing data.

                                Consistent with past OIG recommendations, the DRA provisions are
                                designed to make FULs more reflective of acquisition costs. However,
                                for the new methodology to be effective, the AMP data on which FULs
                                are based must be accurate and timely. We support CMS’s continuing
                                efforts to ensure the integrity of future FUL amounts based on AMPs
                                and further recommend that CMS:
                                Examine the units of AMP submission for all FUL drugs before establishing
                                FUL amounts
                                As noted in previous OIG work, inconsistencies in the units of AMP
                                submission can have implications for future Medicaid reimbursement.
                                For instance, CMS cannot effectively identify the lowest AMP for a FUL
                                drug unless the units of AMP submission for each NDC are comparable.
                                Therefore, to prevent inaccurate FUL calculations, CMS should ensure
                                that the units of AMP submission are consistent across all AMPs for a
                                drug. If any AMP has a unit of submission that differs from that of
                                other AMPs associated with the drug, CMS should take steps to adjust
                                the data before identifying outliers and setting FUL amounts. CMS
                                should also notify manufacturers that submit AMPs using potentially
                                inconsistent or inappropriate units of submission and request that they
                                submit corrected information.
                                Direct manufacturers to periodically examine their monthly AMP
                                calculations to ensure accurate reporting of data
                                In response to our study, a number of manufacturers reexamined and
                                revised their monthly AMP calculations. Such changes could
                                significantly impact FUL amounts for multiple-source drugs. Therefore,
                                CMS should direct all manufacturers with rebate agreements to
                                periodically reexamine their monthly AMP calculations and ensure that
                                those calculations produce results that closely reflect the actual prices
                                paid by AMP-eligible customers during each monthly reporting period.
                                Continue directing manufacturers to report termination dates for
                                discontinued drug products as soon as they are known
                                Pursuant to 42 CFR § 447.514 (c)(1), the AMP of a terminated NDC
                                should not be used to establish a FUL amount beginning with the first
                                day of the month after the actual termination date reported by the
                                manufacturer. Therefore, CMS should ensure that terminated drug
                                products are not included in FUL calculations. Although manufacturers
                                are ultimately responsible for reporting termination dates for their

 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM   15
R E C O M M E N D A T I O N S


                                drugs, CMS may wish to consult alternate sources when obtaining
                                information about discontinued NDCs, such as different drug-pricing
                                compendia. If CMS finds evidence that a product has been
                                discontinued, it could specifically direct the manufacturer to report a
                                termination date for that product.


                                AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                RESPONSE
                                CMS concurred with our first and third recommendations, which
                                concerned units of AMP submission and drug termination dates.
                                Although CMS appreciated our second recommendation, which
                                addressed the accuracy of manufacturers’ monthly AMP calculations,
                                the agency did not explicitly concur or not concur. Rather, CMS stated
                                that it does not believe that this recommendation can be implemented
                                without further information from OIG. Specifically, according to CMS,
                                OIG neither characterized the nature of AMP inaccuracies identified in
                                this report nor confirmed the accuracy of corrected AMPs. CMS further
                                noted that when it asked certain manufacturers to review their AMPs
                                for accuracy in March 2007, the respondents confirmed that their AMPs
                                were correct. CMS also reiterated that manufacturers must certify
                                their AMP data upon submission. Based on its previous experience and
                                without additional information from OIG regarding the specific
                                problems that should be addressed, CMS believes it would not be
                                beneficial to instruct manufacturers to reexamine their AMPs.

                                OIG’s second recommendation sought to address our finding that
                                19 percent of outlier AMPs were identified by manufacturers as being
                                inaccurate or potentially inaccurate, despite having been certified as
                                correct when originally submitted to CMS. As a result of OIG’s work, a
                                number of manufacturers examined and revised their monthly AMP
                                calculations and did so without guidance on the specific problems that
                                should be addressed. Although the manufacturers that responded to
                                CMS’s March 2007 request confirmed that their AMP data were correct,
                                CMS did not require manufacturers to reply and received responses
                                from less than 20 percent of the manufacturers it contacted. The
                                remaining manufacturers may have adjusted their monthly AMPs
                                without directly notifying CMS. Directing manufacturers to periodically
                                review their monthly AMP calculations could ensure more accurate
                                reporting of data.




 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM   16
R E C O M M E N D A T I O N S


                                Because of the confidential nature of AMPs, we could not include in this
                                report information on how individual AMPs changed as a result of
                                manufacturers’ corrections. Rather, we describe whether corrected
                                AMPs still met CMS’s outlier criteria and how corrected AMPs would
                                have affected FUL amounts. However, based on CMS’s response, we
                                will provide the agency with details regarding the differences between
                                original and corrected January 2008 AMPs for each affected drug.
                                Furthermore, although we did not specifically ask manufacturers why
                                the reported inaccuracies occurred, we note on page 18 that some
                                respondents voluntarily provided explanations for the revisions,
                                including changes to lagged price concession data or chargeback
                                smoothing methods. We will provide CMS with any explanations
                                provided by manufacturers for revisions to specific drug products.

                                We ask that, in its final management decision, CMS explicitly state
                                whether it concurs with our second recommendation and what steps, if
                                any, it will take to implement it.

                                For the full text of CMS’s comments, see Appendix E.




 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM   17
       A P P E N D I X                               ~        A


                    Differences Between the Lowest and Second-Lowest Average
                    Manufacturer Prices for Outlier Drugs
                               On average, average manufacturer prices (AMP) for the 242 outlier
                               drugs were 78 percent below the second-lowest AMPs. The lowest AMP
                               for 43 of the outlier drugs was at least 90 percent below the
                               second-lowest AMP, with 4 outlier AMPs being 99.99 percent below the
                               next-lowest AMPs. For example, the lowest AMP for Drug X was
                               $0.000001, while the second lowest AMP was $0.074444.

                               The table below describes the extent to which outlier AMPs differed
                               from the second-lowest AMPs.

                                      Extent to Which Outlier AMPs Were Below Second-Lowest AMPs

                                              Percentage Below the                             Number of Drugs
                                              Second-Lowest AMP                               With Outlier AMPs

                                              60.00%–69.99%                                                 78
                                              70.00%–79.99%                                                 65
                                              80.00%–89.99%                                                 56
                                              90.00%–99.99%                                                 43
                                                 Total                                                      242
                                          Source: Office of Inspector General’s analysis of the January 2008 Federal
                                          upper limit file prepared by the Centers for Medicare & Medicaid Services, 2008.




O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM                    18
          A P PEN 0                                 x                 B

Agency Comments


   ~.sP."'VlC~

  ( J/{-rrt.                 DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centel'S for Medicare & Medicaid Services
   '10",-.....!
      ~ ......... /I 

                                                                                                     200 Independence Avenue SW
                                                                                                     Washington. DC 20201




                         DATE: 	       MAY 2 2 2009
                         TO: 	        Daniel R. Levinson 

                                      Inspector General 


                         FROM: 	      Charlene Frizzera 

                                                          /S/
                                      Acting Administrator 


                         SUBJECT: 	 Office of Inspector General (OIG) Draft Report "Outlier A verage Manufacturer
                                    Prices in the Federal UpperLimit Program" (OEI-03-07-00740)


                     Thank you fDr the opportunity to review and comment Dn the subject draft report. The purpose
                     of this OIG report was to determine: (1) the effect ofinconsistently reported unit.typeson outlier
                     average manufacturer prices (AMPs) for Medicaid Federal upper limit (FUL) drugs, (2) the
                     accuracy of outlier AMPs, and (3) the availability of drug products with outlier AMPS to the
                     retail class of trade.

                     Under section 1927 of the Social Security Act, manufacturers are required to report certain drug
                     product and pricing data to the Centers for Medicare & Medicaid Services (eMS), including the
                     AMP and unit type of the drug (e.g., tablet, milliliter, grain). Under the Deficit Reduction Act of
                     2005 (ORA), FUL amounts for multiple source drugs are to be set at 250 percent of AMP for the
                     least costly therapeutically equivalent drug. In accordance with CMS regulation, additional
                     criteria would be used to calculate the fUL. One of these criteria is that drugs considered to be
                     outliers would be excluded from this calculation. In accordance with the outlier policy set forth
                     in 42 CFR 447.514, CMS would disregard the lowest AMP if it is more than 60 percent below
                     the second lowest AMP in order to avoid a FUL being set below the cost at which the drug is
                     nationally available.

                     The OIG notes that CMS has taken steps to assure that manufacturer-submitted AMP data is
                     correct, including requiring certification of such data, and encouraging manufacturers to report
                     data in a timely manner, including termination dates of discontinued drugs. The OIG also notes
                     that the preliminary injunction issued by the u.s. District Court for the District ofC<;J1umbia
                     prevents the implementation of AMP-based FULs and State access to AMP data, and prohibits
                     eMS from taking any actions to implement the AMP rule to the extenlsuch action affects
                     Medicaid reimbursement for such drugs. In addition, a moratorium in the Medicare
                     Improvements for Patients and Providers Act of2008 prohibits CMS from issuing AMP-based
                     FULs until October 1,2009.




  OEI·03·07·00740                    OUTLIER AVERAGE MANUFACTURER PRICES IN THE FEDERAL UPPER LIMIT PROGRAM
                                                                                                                                           19
A P P           E N D I X               ~       B




 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM
                                                                                                             20
A P P           E N D I X               ~       B




 O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM
                                                                                                             21
       A C K N O W L E D G M E N T S



                               This report was prepared under the direction of Robert A. Vito, Regional
                               Inspector General for Evaluation and Inspections in the Philadelphia
                               regional office, and David E. Tawes, Director of the Medicare and
                               Medicaid Prescription Drug Unit.

                               Lauren McNulty served as the team leader for this study. Other
                               principal Office of Evaluation and Inspections staff from the
                               Philadelphia regional office who contributed include Eric Biersmith;
                               central office staff who contributed to this report include Kevin Manley.




O E I - 0 3 - 0 7 - 0 0 74 0   OUTLIER AVERAGE MANUFACTURER PRICES   IN THE   FEDERAL UPPER LIMIT PROGRAM
                                                                                                            22
